46

APPENDIX•
:

i

pm

mi

United States Court of Appeals
For the First Circuit
No. 19-2210
UNITED STATES
Appellee,
v.
EUSEBIO ESCOBAR DE JESUS,
Defendant - Appellant.

Before
Torruella, Selya and Thompson,
Circuit Judges.
JUDGMENT
Entered: July 23, 2020
The defendant appeals the district court's order of October 31, 2019, denying his properly
exhausted Motion to Reduce Sentence under the First Step Act. of 2018 and 18 U.S.C. §
3582(c)(1)(A). In its only argument preserved for appeal, the motion requested compassionate
release because the defendant's time served purportedly exceeds any term that could be imposed
if he were being sentenced today in light of Apprendj v. New Jersey, 530 U.S. 466 (2000); two
other Apprendi-themed decisions; and certain sentencing changes wrought by the First Step Act.
As the government noted below, the defendant "was sentenced to a life sentence triggered
by a jury conviction of life terms as to Count One, Ten, Twelve, and Twenty of the Indictment.
(We, and no doubt the district court as well, have disregarded certain inconsequential errors m the
government's opposition.) The defendant's Apprendi claim was denied on the merits almost twenty
years ago and that ruling was not appealed. His repurposed Apprendj argument does not furnish
an "extraordinary and compelling reaso[n]" for his discretionary release. § 3582(c)(1)(A). The
denial of relief was well within the district court s discretion.
Affirmed. The defendant's additional "Emergency Motion" for compassionate release on
COVID-19 grounds is denied without prejudice to a procedurally appropriate request before the
Bureau of Prisons or the district court.

United States Court of Appeals
For the First Circuit
No. 19-2210
UNITED STATES
Appellee
v.
EUSEBIO ESCOBAR DE JESUS
Defendant - Appellant

ORDER OF COURT
Entered: August 18, 2020
Pursuant to 1st Cir. R. 27.0(d)
The mandate issued on August 13, 2020 is hereby vacated as it was issued in error.
By the Court:
Maria R. Hamilton, Clerk
cc:

Honorable Juan M. Perez-Gimenez
Maria Antongiorgi Jordan, Clerk, (D.P.R.)
Max J. Perez-Bouret
Thomas F. Klumper
Jose A. Ruiz-Santiago
George A. Massucco-LaTaif
Mariana E. Bauza Almonte
Antonio Perez-Alonso
Angela Jean Clifford-Salisbury
Eusebio Escobar De Jesus

• t-

United States Court of Appeals
For the First Circuit
No. 19-2210
UNITED STATES
Appellee
v.
EUSEBIO ESCOBAR DE JESUS
Defendant - Appellant

MANDATE
Entered: January 21, 2021
In accordance with the judgment of July 23, 2020, and pursuant to Federal Rule of
Appellate Procedure 41(a), this constitutes the formal mandate of this Court.

By the Court:
Maria R. Hamilton, Clerk

cc:

Mariana E. Bauza Almonte
Angela Jean Clifford-Salisbury
Eusebio Escobar De Jesus
Thomas F. Klumper
George A. Massucco-LaTaif
Antonio Perez-Alonso
Max J. Perez-Bouret
Jose A. Ruiz-Santiago

V

Case: 19-2210

Document: 00117692686

Page: 1

Date Filed: 01/14/2021

Entry ID: 6394785

United States Court of Appeals
For the First Circuit
No. 19-2210
UNITED STATES,
Appellee,
v.
EUSEBIO ESCOBAR DE JESUS,
Defendant - Appellant.

Before
Howard, Chief Judge.
Selya, Lynch, Thompson,
Kayatta and Barron, Circuit Judges.
ORDER OF COURT
Entered: January 14, 2021
The petition for rehearing having been denied by the panel of judges who decided the case,
and the petition for rehearing en banc having been submitted to the active judges of this court and
a majority of the judges not having voted that the case be heard en banc, it is ordered that the
petition for rehearing and the petition for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk
cc:
Max J. Perez-Bouret
Thomas F. Klumper
Jose A. Ruiz-Santiago
George A. Massucco-LaTaif
Mariana E. Bauza Almonte
Antonio Perez-Alonso

Case: 19-2210

Document: 00117692686

Angela Jean Clifford-Salisbury
Eusebio Escobar De Jesus

Page: 2

Date Filed: 01/14/2021

Entry ID: 6394785

I

I

Case 3:90-cr-00130-PG Document 1309 Filed 08/30/19 Page 1 of 7

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

UNITED STATES OF AMERICA
Plaintiff,

CRIMINAL NO. 90-130 (PG)

v.
[1] EUSEBIO ESCOBAR-DE-JESUS,
Defendant.
OPPOSITION TO MOTION FOR COMPASSIONATE RELEASE
RASED ON FIRST STEP ACT OF 2018
TO THE HONORABLE COURT:
COMES NOW the United States of America, herein represented through its attorneys and
very respectfully submits the following response:
Procedural Background
“On April 1993, a jury convicted [1] Eusebio Escobar De Jesus of sixteen drug, assault,
and weapons-related counts, including Count 1, engaging in a continuing criminal enterprise in
violation of 21 U.S.C. §848 (a) and (c), and Count 12, causing an intentional killing while engaged
in a continuing criminal enterprise in violation of 21 U.S.C. § 848 (e).” United States v. Escobarde-Jesus, 187 F.3d 148 (1st Cir. 1999). On appeal, the First Circuit affirm all of the defendant’s
convictions. Id.
Defendant was sentenced to: 1) life terms of imprisonment as to Count One, Ten, Twelve,
and Twenty; 2) ten (10) year terms of imprisonment as to Counts Eleven, Seventeen and Eighteen,
3) four (4) year terms of imprisonment as to Counts nineteen, Twenty-Three, Twenty-Four, and
Thirty-Three terms to be served concurrently with each other. ECF No. 945 and Sentencing
Hearing Transcript at 30.

1

Case 3:90-cr-00130-PG Document 1309 Filed 08/30/19 Page 2 of 7

Defendant Escobar de Jesus has requested various sentence reduction prior to the First Step
Act (see Motion by Eusebio Ecobar-De-Jesus, pro se to Reduce Sentence ECF. No 1097, Motion
to Reduce Sentence ECF No. 1138, and Motion to Reduce Sentence as to Counts 1,2,10,20 ECF
No.

1 Hi) all of them have been denied by this Court. ECF No. 1100,1145, and 1174. The reason

being, defendant has several life sentences which are triggered by his convictions of Count One
21 U.S.C. §848, Count Ten 21 U.S.C. §841 (a)(1), Count Twelve 21 U.S.C. §848(e)(l)(a), and
Twenty 21 U.S.C. §§952, 960 and 963. At sentencing the Court also noted his role in the
organization, his a
while

criminal history of VI and his participation in causing an intentional killing

involved criminal enterprise. ECF No. 1175 (asserting all grounds by the Government in

Response to ECF. 1173 are legally correct).
On April 22, 2019, the defendant filed a Motion for Compassionate Release based on the
First Step Act of 2018. ECF No. 1306. The United States avers that defendant Eusebio Escobar
De Jesus is in

eligible for relief based on the First Step Act of 2018 and therefore, the Government

respectfully requests that the Court summarily deny defendant’s motion.
Discussion
Section 603(b)oftheFirstStep Act amends 18U.S.C. § 3582 to permit inmates inspecified
circumstances to file motions in court

seeking “compassionate release.” Previously, only the

Director of BOP could file such a motion. Under the First Step Act, an inmate may file a motion
after

exhausting administrative review of the denial of a request to BOP for compassionate release,

or after

30 days have passed since the request was made to the warden, whichever is earlier.
As the proponent of the motion, the defendant bears the burden of proving both that he has

satisfied the procedural prerequisites for judicial review, that he has “exhausted all administrative
2

Document 1309 Filed 08/30/19 Page 3 of 7

Case 3:90-cr-00130-PG

ppeal a failure of the Bureau of Prison to bring a motion on inmates behalf or that 30
rights to a
days have lapsed “from the receipt of such a request by the warden’ ’ and that “extraordinary and
compelling reasons” exist to support the modem 18 U.S.C. § 3582(cXl)(A); see United States v.
Butler, 970 F.2d 1017, 1026 (2d Cir.
access to proof on a
States v.

1992) (“A party with an affirmative goal and presumptive

given issue normally has the burden of proof as to that issue.”); cf. United

Hamilton, 715 F.3d 328, 337 (11th Cir. 2013) (“[A] defendant, as the § 3582(c)(2)

movant, bears the

burden of establishing that a retroactive amendment has actually lowered his

guidelines range in his case. ).
As under prior law, in assessing the merits of an inmate's motion for compassionate release
’s ultimate decision must be “consistent with applicable
under Section 3582(c)(1)(A), the court s
policy statements issued by the Sentencing Commission. ” Further, 28 U.S.C. § 994(t) provides:
“The Commission, in promulgating
modification provisions in section

general policy statements regarding the sentencing

3582(c)(1)(A) of title 18, shall describe what should be

idered extraordinary and compelling reasons for sentence reduction, including the cntena to
consi
Rehabilitation of the defendant alone shall not be
be applied and a list of specific examples.
considered an extraordinary and compelling reason
Commission is binding on the court

. Accordingly, the policy statement of the

. Sec Dillon v. United States, 560 U.S. 817,827 (2010) (where

retroactive guideline
18. U.S.C. § 3582(c)(2). permits a sentencing reduction based on a
is consistent with applicable policy statements issued by the
amendment, “if such a reduction is
Sentencing Commission,” the Commission’s pertinent policy statements are binding on the court).

Section

603(b) of the First Step Act also adds special provisions related to inmates

suffering from a terminal illness

, which now appear in 18 U.S.C. § 3582(d). In the Act, “terminal
3

Case 3:90-cr-00130-PG Document 1309 Filed 08/30/19 Page 4 of 7

illness” is defined as “a disease or condition with an end-of-life trajectory.” 18 U.S.C.
§ 3582(d)(1). The Section 1B1.13 policy statement defines “terminal illness” as “a serious and
advanced illness with an end of life trajectory,” adding, “[a] specific prognosis of life expectancy
is not required. Hie newly amended BOP program statement refers to an inmate who is “diagnosed
with a terminal, incurable disease and whose life expectancy is eighteen (18) months or less, and/or
has a disease or condition with an end-of-life trajectory under 18 USC § 3582(d)(1).” Program
Statement 5050.50. at 4.

The main purpose of this section is to provide for a qualifying inmate an accelerated path
to a compassionate release. As stated before the defendant has the burden of proving he meets the
requirements for a compassionate release. Defendant Eusebio Escobar de Jesus has not met such
requirements.

In his motion defendant limits his arguments to mentioning some illnesses, but fails to
provide a medical record with a terminally ill diagnosis or an extraordinary and compelling
condition as defined by §3582. Defendant submits all his accomplishments for courses taken and
his good behavior, but as stated by Section 603 rehabilitation alone shall not be considered an
extraordinary and compelling reason.

On January 17, 2019, defendant received a response statement made by the BOP stating
that he is not eligible for compassionate release. ECF No. 1306-5. Defendant was sentenced to a
life sentence triggered by a jury conviction of life terms as to Count One, Ten, Twelve, and Twenty
of the Indictment. ECF No. 1248.
4

Case 3:90-cr-00130-PG Document 1309 Filed 08/30/19 Page 5 of 7

In light of this plain statutory text, defendant is tasked with the burden of proving that an
extraordinary and compelling reason may justify compassionate release. Defendant EscobarDe-Jesus has not meet this burden of proof.
On April 1,2019, the defendant filed the instant Motion, asserting that he is eligible for a
compassionate release under the First Step Act. ECF No. 1306. However, a review of the record
evidences that the defendant’s has not met the burden of proof that merits a compassionate release
under the First Step Act of 2018. Therefore, the Act does not provide this Court with jurisdiction
to modify the Defendant’s sentence. As such, the First Step Act affords the defendant no relief.
WHEREFORE, the United States of America respectfully submits that the defendant is
ineligible for a sentence reduction pursuant to the First Step Act of 2018, and respectfully requests
that the Court summarily deny the Defendant’s Motion.
RESPECTFULLY SUBMITTED.
In San Juan, Puerto Rico, this 30 day of August, 2019.

ROSA EMILIA RODRIGUEZ-VELEZ
United States Attorney
/S/MAX PEREZ-BOURET
Max Perez-Bouret -222612
Assistant United States Attorney
U.S. Attorney’s Office
Torre Chardon, Suite 1201
#350 Carlos Chardon Ave.
HatoRey, PR 00918
Tel.: (787) 766-5656
Email: max.j.perez@usdoj.gov

5

CM/ECF LIVE - U.S. District Court for the District of Puerto Rico

https://ecf.prd.uscourts.gov/cgi-bin/DktRpt.pl7158319622498899 ...

FRC
United States District Court
District of Puerto Rico (San Juan)
CRIMINAL DOCKET FOR CASE #: 3:90-cr-00130-ADC-l

Case title: USA v. Escobar-De-Jesus et al
Related Case: 3:12-cv-01539-PG

Date Filed: 04/11/1991
Date Terminated: 05/24/1993

Assigned to: Judge Aida M. DelgadoColon
Appeals court case numbers: '06-1676',
'09-2187', '09-2257', 00-1681, 11-1004,
16-1250, 19-2210
Defendant (1)
Eusebio Escobar-De-Jesus
TERMINATED: 05/24/1993

represented by Eusebio Escobar-De-Jesus
Reg. No. 03903-069
FCI Fairton
R O. Box 420
FAIRTON, NJ 08320
PROSE
Rafael F. Castro-Lang
Castro & Castro Law Office
PO Box 9023222
San Juan, PR 00902-3222
787-723-3672 787-644-1448
Fax:(787)725-4133
Email: rafacastrolang@gmail.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Max J. Perez-Bouret
(See above for address)
TERMINATED: 08/30/2019
Designation: Retained

1 of 17

Pending Counts

Disposition

21:841(a)(l) and 18:2: A/A,
NARCOTICS - SELL, DISTRIBUTE,
OR DISPENSE COCAINE
(1)

IMPRISONMENT FOR A TERM OF
LIFE AS TO CTS 1,10, 20. SMA
$50.00 PER COUNT. Sentence
reduction Amendment 782 denied.

4/6/2021, 12:33 PM

CM/ECF LIVE - U.S. District Court for the District of Puerto Rico

https://ecf.prd.uscourts.gov/cgi-bin/DktRpt.pl7158319622498899...

21:841(a)(l) and 18:2: A/A,
NARCOTICS - SELL, DISTRIBUTE,
OR DISPENSE COCAINE
(10)

IMPRISONMENT FOR A TERM OF
LIFE AS TO CTS 1,10, 20. SMA
$50.00 PER COUNT. Sentence
reduction Amendment 782 denied.

21:952, 960, 963 and 18:2: A/A,
NARCOTICS - IMPORT COCAINE

IMPRISONMENT FOR A TERM OF
LIFE AS TO CTS 1,10, 20. SMA
$50.00 PER COUNT. Sentence
reduction Amendment 782 denied.

(20)

Highest Offense Level (Opening)
Felony
Terminated Counts

Disposition

21:952, 960, 963 and 18:2: A/A,
NARCOTICS - IMPORT COCAINE

VACATED BY THE COURT

(2)

Highest Offense Level (Terminated)
Felony
Complaints

Disposition

None

Interested Party
US Probation

Plaintiff
USA

2 of 17

represented by G. Andrew Massucco-LaTaif
United States Attorneys Office
District of Puerto Rico
Torre Chardon Suite 1201
350 Chardon Ave
San Juan, PR 00918
787-282-1853
Fax: 787-766-5398
Email: george.a.massucco@usdoj.gov
TERMINATED: 10/08/2010
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Designation: Retained

4/6/2021, 12:33 PM

CM/ECF LIVE - U.S. District Court for the District of Puerto Rico

https://ecf.prd.uscourts.gov/cgi-bin/DktRpt.pl7158319622498899...

Jose A. Ruiz-Santiago
United States Attorney's Office
Torre Chardon, Suite 1201
350 Carlos Chardon Avenue
San Juan, PR 00918
787-766-5656
Email: jose.ruiz3@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Max J. Perez-Bouret
United States Attorneys Office
District of Puerto Rico
Torre Chardon Suite 1201
350 Chardon Ave
San Juan, PR 00918
787-766-5656
Fax: 787-771-4050
Email: max.j.perez@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Designation: A USA Designation
Thomas F. Klumper
United States Attorneys Office, District
of Puerto Rico
Torre Chardon Suite 1201
350 Chardon Ave
San Juan, PR 00918
787-282-1805
Fax:787-771-4050
Email: thomas.klumper@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Humberto S. Garcia
United States Attorneys Office, District
of Puerto Rico
Torre Chardon Suite 1201
350 Chardon Ave
San Juan, PR 00918
787-282-1884
Fax: 787-766-5632
Email: h.garcia@usdoj.gov
TERMINATED: 04/01/2004
Designation: Retained
Date Filed

3 of 17

#

Docket Text

4/6/2021, 12:33 PM

CM/ECF LIVE - U.S. District Court for the District of Puerto Rico

07/11/2018

1304 JUDGMENT of USCA (certified copy) as to Eusebio Escobar-De-Jesus (1) re
1292 Notice of Appeal - Final Judgment; summarily AFFIRMED, (xi)
(Entered: 07/11/2018)

08/03/2018

1305

08/03/2018

15 of 17

https://ecf.prd.uscourts.gov/cgi-bin/DktRpt.pl7158319622498899...

MANDATE of USCA (certified copy) as to Eusebio Escobar-De-Jesus (1) re
1292 Notice of Appeal - Final Judgment; summarily AFFIRMED. RE: 1304
JUDGMENT of USCA (xi) (Entered: 08/03/2018)
Appeal Record Returned as to Eusebio Escobar-De-Jesus (1): 1292 Notice of
Appeal - Final Judgment RE: 1305 USCA Mandate, 1301 Supplemental
Record Sent USCA, 1294 Appeal Record Sent to USCA, 1304 USCA
Judgment, (xi) (Entered: 08/03/2018)

04/22/2019

1306 MOTION to Reduce Sentence - First Step Act by Eusebio Escobar-De-Jesus
(1), Pro se. (Attachments: # I A, # 2 B, # 3 C, # 4 D, # 5 E, # 6 Appendix F, # 7
Envelope)(gav) (Entered: 04/23/2019)

05/06/2019

1307 MOTION to Reduce Sentence - First Step Act by Eusebio Escobar-De-Jesus
(1), Pro se. (Attachments: # \ Compassionate Release and Medical documents,
# 2 R&R 782, # 3 Supervised Release documents, # 4 Property related
documents, # 5 Summary Reentry Plan, # 6 Inmate skills development, # 7
Property deed, # 8 Envelope)(gav) Modified on 5/7/2019 (gav). (Entered:
05/07/2019)

08/23/2019

1308

08/30/2019

1309 RESPONSE in Opposition by Eusebio Escobar-De-Jesus re 1307 MOTION to
Reduce Sentence - First Step Act filed by Eusebio Escobar-De-Jesus (PerezBouret, Max) (Entered: 08/30/2019)

09/23/2019

1310 REPLY TO RESPONSE to Motion by Eusebio Escobar-De-Jesus (1), Pro se, re
1307 MOTION to Reduce Sentence - First Step Act filed. (Attachments: # \
Exhibit A, # 2 Exhibit B, # 3 Exhibit C, # 4 Exhibit D, # 5 Envelope)(gav)
(Entered: 09/25/2019)

10/25/2019

1311

MOTION Requesting Order for Entry of Default by Eusebio Escobar-De-Jesus
(1), Pro se. Responses due by 11/8/2019. NOTE: Pursuant to FRCP 6(a) an
additional three days does not apply to service done electronically.
(Attachments: # 1 Envelope)(gav) (Entered: 10/28/2019)

10/31/2019

1312

ORDER denying 1311 Motion Requesting Order as to Eusebio Escobar-DeJesus (1) Signed by Judge Juan M. Perez-Gimenez on 10/31/2019. (om)
(Entered: 10/31/2019)

10/31/2019

1313

ORDER as to Eusebio Escobar-De-Jesus (1) denying 1306 Motion to Reduce
Sentence - First Step Act; denying 1307 Motion to Reduce Sentence - First
Step Act; granting United States' Opposition for compassionate release based
on First Step Act of 2018. For the reasons stated at ECF No. 1309, defendant's
request is denied. Signed by Judge Juan M. Perez-Gimenez on 10/31/2019.

ORDER as to Eusebio Escobar-De-Jesus (1) re 1307 Motion to Reduce
Sentence - First Step Act & 1306 Motion to Reduce Sentence - First Step Act
filed by Eusebio Escobar-De-Jesus. The Government shall respond in thirty
(30) days. Signed by Judge Juan M. Perez-Gimenez on 8/23/19. (cmd)
(Entered: 08/23/2019)

4/6/2021, 12:33 PM

Case 3:90-cr-00130-ADC Document 1309 Filed 08/30/19 Page 1 of 7

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

UNITED STATES OF AMERICA
Plaintiff,
v.

CRIMINAL NO. 90-130 (PG)

[1] EUSEBIO ESCOBAR-DE-JESUS,
Defendant.

OPPOSITION TO MOTION FOR COMPASSIONATE RELEASE
BASED ON FIRST STEP ACT OF 2018
TO THE HONORABLE COURT:
COMES NOW the United States of America, herein represented through its attorneys and
very respectfully submits the following response:
Procedural Background
“On April 1993, a jury convicted [1] Eusebio Escobar De Jesus of sixteen drug, assault,
and weapons-related counts, including Count 1, engaging in a continuing criminal enterprise in
violation of 21 U.S.C. §848 (a) and (c), and Count 12, causing an intentional killing while engaged
in a continuing criminal enterprise in violation of 21 U.S.C. § 848 (e).” United States v. Escobarde-Jesus, 187 F.3d 148 (1st Cir. 1999). On appeal, the First Circuit affirm all of the defendant’s
convictions. Id.
Defendant was sentenced to: 1) life terms of imprisonment as to Count One, Ten, Twelve,
and Twenty; 2) ten (10) year terms of imprisonment as to Counts Eleven, Seventeen and Eighteen;
3) four (4) year terms of imprisonment as to Counts nineteen, Twenty-Three, Twenty-Four, and
Thirty-Three terms to be served concurrently with each other. ECF No. 945 and Sentencing
Hearing Transcript at 30.
1

Case 3:90-cr-00130-ADC Document 1309 Filed 08/30/19 Page 2 of 7

Defendant Escobar de Jesus has requested various sentence reduction prior to the First Step
Act (.see Motion by Eusebio Ecobar-De-Jesus, pro se to Reduce Sentence ECF. No 1097, Motion
to Reduce Sentence ECF No. 1138, and Motion to Reduce Sentence as to Counts 1,2,10,20 ECF
No. 1171) all of them have been denied by this Court. ECF No. 1100, 1145, and 1174. The reason
being, defendant has several life sentences which are triggered by his convictions of Count One
21 U.S.C. §848, Count Ten 21 U.S.C. §841 (a)(1), Count Twelve 21 U.S.C. §848(e)(l)(a), and
Twenty 21 U.S.C. §§952, 960 and 963. At sentencing the Court also noted his role in the
organization, his a criminal history of VI and his participation in causing an intentional killing
while involved criminal enterprise. ECF No. 1175 (asserting all grounds by the Government in
Response to ECF. 1173 are legally correct).
On April 22, 2019, the defendant filed a Motion for Compassionate Release based on the
First Step Act of 2018. ECF No. 1306. The United States avers that defendant Eusebio Escobar
De Jesus is ineligible for relief based on the First Step Act of 2018 and therefore, the Government
respectfully requests that the Court summarily deny defendant’s motion.
Discussion
Section 603(b) of the First Step Act amends 18 U.S.C. § 3582 to permit inmates in specified
circumstances to file motions in court seeking “compassionate release.” Previously, only the
Director of BOP could file such a motion. Under the First Step Act, an inmate may file a motion
after exhausting administrative review of the denial of a request to BOP for compassionate release,
or after 30 days have passed since the request was made to the warden, whichever is earlier.
As the proponent of the motion, the defendant bears the burden of proving both that he has
satisfied the procedural prerequisites for judicial review, that he has “exhausted all administrative
2

Case 3:90-cr-00130-ADC Document 1309 Filed 08/30/19 Page 3 of 7

rights to appeal a failure of the Bureau of Prison to bring a motion on inmates behalf’, or that 30
days have lapsed “from the receipt of such a request by the warden” and that “extraordinary and
compelling reasons” exist to support the motion. 18 U.S.C. § 3582(c)(1)(A); see United States v.
Butler, 970 F.2d 1017, 1026 (2d Cir. 1992) (“A party with an affirmative goal and presumptive
access to proof on a given issue normally has the burden of proof as to that issue.”); cf United
States v. Hamilton, 715 F.3d 328, 337 (11th Cir. 2013) (“[A] defendant, as the § 3582(c)(2)
movant, bears the burden of establishing that a retroactive amendment has actually lowered his
guidelines range in his case.”).

As under prior law, in assessing the merits of an inmate’s motion for compassionate release
under Section 3582(c)(1)(A), the court’s ultimate decision must be “consistent with applicable
policy statements issued by the Sentencing Commission.” Further, 28 U.S.C. § 994(t) provides:
“The Commission, in promulgating general policy statements regarding the sentencing
modification provisions in section 3582(c)(1)(A) of title 18, shall describe what should be
considered extraordinary and compelling reasons for sentence reduction, including the criteria to
be applied and a list of specific examples. Rehabilitation of the defendant alone shall not be
considered an extraordinary and compelling reason. Accordingly, the policy statement of the
Commission is binding on the court. SeeDillonv. United States, 560 U.S. 817,827 (2010) (where
18 U.S.C. § 3582(c)(2) permits a sentencing reduction based on a retroactive guideline
amendment, “if such a reduction is consistent with applicable policy statements issued by the
Sentencing Commission,” the Commission’s pertinent policy statements are binding on the court).

Section 603(b) of the First Step Act also adds special provisions related to inmates
suffering from a terminal illness, which now appear in 18 U.S.C. § 3582(d). In the Act, “terminal
3

Case 3:90-cr-00130-ADC Document 1309 Filed 08/30/19 Page 4 of 7

illness” is defined as “a disease or condition with an end-of-life trajectory.” 18 U.S.C.
§ 3582(d)(1). The Section 1B1.13 policy statement defines “terminal illness” as “a serious and
advanced illness with an end of life trajectory,” adding, “[a] specific prognosis of life expectancy
is not required. The newly amended BOP program statement refers to an inmate who is “diagnosed
with a terminal, incurable disease and whose life expectancy is eighteen (18) months or less, and/or
has a disease or condition with an end-of-life trajectory under 18 USC § 3582(d)(1).” Program
Statement 5050.50 at 4.

The main purpose of this section is to provide for a qualifying inmate an accelerated path
to a compassionate release. As stated before the defendant has the burden of proving he meets the
requirements for a compassionate release. Defendant Eusebio Escobar de Jesus has not met such
requirements.

In his motion defendant limits his arguments to mentioning some illnesses, but fails to
provide a medical record with a terminally ill diagnosis or an extraordinary and compelling
condition as defined by §3582. Defendant submits all his accomplishments for courses taken and
his good behavior, but as stated by Section 603 rehabilitation alone shall not be considered an
extraordinary and compelling reason.

On January 17, 2019, defendant received a response statement made by the BOP stating
that he is not eligible for compassionate release. ECF No. 1306-5. Defendant was sentenced to a
life sentence triggered by a jury conviction of life terms as to Count One, Ten, Twelve, and Twenty
of the Indictment. ECF No. 1248.
4

Case 3:90-cr-00130-ADC Document 1309 Filed 08/30/19 Page 5 of 7 ,

In light of this plain statutory text, defendant is tasked with the burden of proving that an
extraordinary and compelling reason may justify compassionate release. Defendant EscobarDe-Jesus has not meet this burden of proof.
On April 1, 2019, the defendant filed the instant Motion, asserting that he is eligible for a
compassionate release under the First Step Act. ECF No. 1306. However, a review of the record
evidences that the defendant’s has not met the burden of proof that merits a compassionate release
under the First Step Act of 2018. Therefore, the Act does not provide this Court with jurisdiction
to modify the Defendant’s sentence. As such, the First Step Act affords the defendant no relief.
WHEREFORE, the United States of America respectfully submits that the defendant is
ineligible for a sentence reduction pursuant to the First Step Act of 2018, and respectfully requests
that the Court summarily deny the Defendant’s Motion.
RESPECTFULLY SUBMITTED.
In San Juan, Puerto Rico, this 30 day of August, 2019.
ROSA EMILIA RODRIGUEZ-VELEZ
United States Attorney

/S/MAX PEREZ-BOURET
Max Perez-Bouret -222612
Assistant United States Attorney
U.S. Attorney’s Office
Torre Chardon, Suite 1201
#350 Carlos Chardon Ave.
Hato Rey, PR 00918
Tel.: (787) 766-5656
Email: max.j.perez@usdoj.gov

5

Case 3:90-cr-00130-ADC Document 1309 Filed 08/30/19 Page 6 of 7

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this date, I electronically filed the foregoing with the Clerk
of the Court using the CM/ECF system which will send notification of such filing to defense
counsel as stated below and by regular mail to: Eusebio Escobar De Jesus, Register # 03903-069,
USP Coleman II, U.S. Penitentiary, P.O. BOX 1034, Coleman, FL 33521.

/S/MAX PEREZ-BOURET
MaxPerez-Bouret-222612.
Assistant United States Attorney

6

Case 3:90-cr-00130-ADC Document 1309 Filed 08/30/19 Page 7 of 7

7

' t./

APPENDIX:

c

■ Case: 19-2210

Document: 00117584968

Page: 1

Date Filed: 05/05/2020

Entry ID: 6336384

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
APPEAL NO. 19-2210
UNITED STATES
Appellee
•I
v.

EUSEBIO ESCOBAR-DE JESUS
Defendant-Appellant

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

BRIEF FOR APPELLEE

W. Stephen Muldrow
United States Attorney
Mariana E. Bauza-Almonte
Assistant United States Attorney
Chief, Appellate Division

. *

Angela Jean Clifford-Salisbury
Assistant United States Attorney
U.S. Attorney's Office
Torre Chardon, Suite 1201
350 Carlos Chardon Avenue
San Juan, Puerto Rico 00918
Tel. (787) 766-5656
Fax (787) 771-4050

• ^Case.: 19-2210

Document: 00117584968

Page: 22

Date Filed: 05/05/2020

Entry ID: 6336384

Standard of Review:
The standard of review applicable to district court decisions on
sentence reduction motions brought pursuant to section 3582(c) is abuse of
discretion. See United States v. Zayas-Ortiz, 808 F.3d 520, 523 (1st Cir. 2015).
Though the circumstances for sentence reduction under each of the
subsections of section 3582(c) differ, both subsections provide that a court
"may ... reduce the term of imprisonment" - thereby vesting the ultimate
decision to the discretion of the district court. The abuse of discretion
standard therefore is applicable to a review of § 3582(c)(1) decisions.
Discussion:
The district court properly denied Escobar's § 3582(c)(1)(A) motion.
The district court concisely based its ruling on the reasons set forth in the
Government's opposition to Escobar's motion. (See DE 1309, 1313). As
discussed fully below, those reasons included the fact that Escobar does not
suffer from a medical condition constituting an "extraordinary and
compelling" circumstance, and that his good behavior alone is not sufficient
to justify compassionate release. (DE 1309). Accordingly, the Court should

17

_ C<ase: 19-2210

Document: 00117584968

Page: 23

Date Filed: 05/05/2020

Entry ID: 6336384

affirm the district court's order denying Escobar's motion for compassionate
release.
Under 18 U.S.C. § 3582(c), a district court may not modify a term of
imprisonment once it has been imposed except under certain, limited
circumstances. 18 U.S.C. § 3582(c); United States v. Griffin, 524 F.3d 71,83 (1st
Cir. 2008). The court may reduce the term of imprisonment, after considering
the factors set forth in section 3553(a) to the extent that they are applicable,
if the court finds "(i) extraordinary and compelling reasons warrant such a
reduction" or (ii) if the defendant is 70 years of age, has served at least 30
years in prison for a sentence imposed under section 3559(c), for the
offense(s) for which the defendant is currently imprisoned, and the Director
of the Bureau of Prisons makes a determination that the defendant is not a
danger to the safety of others. 18 U.S.C. § 3582(c)(2).
If the district court finds one of those two elements are met (namely,
that there are either extraordinary and compelling reasons in (i), or that the
defendant has met the age and sentence threshold of (ii)), the court may
reduce the term of imprisonment only "if such a reduction is consistent with
applicable policy statements issued by the Sentencing Commission." 18
U.S.C. § 3582(c)(1)(A); see Dillon v. United States, 560 U.S. 817, 821 (2010). In
18

•

.. ,Ca.so;
19-2210
*. /O'

Document: 00117584968

Page: 24

Date Filed: 05/05/2020

Entry ID: 6336384

determining whether or not to reduce a sentence pursuant to § 3582(c), the
district court conducts a two-part inquiry. United States v. Candelaria-Silva,
714 F.3d 651, 656 (1st Cir. 2012) (citing Dillon, 560 U.S. at 827).
First, it must determine whether the prisoner is eligible for a sentence
modification and the extent of the reduction authorized. Id. If the prisoner
is eligible for a sentence reduction, the district court must then "consider any
applicable § 3553(a) factors and determine whether, in its discretion, the
reduction authorized by [section 1B1.10 of the United States Sentencing] is
warranted in whole or in part under the particular circumstances of the
case." Dillon, 560 U.S.at 827.
A. Escobar does not qualify for a sentencing reduction under
18 U.S.C. § 3582(c)(1)(A)(ii).
As a matter of law, Escobar does not qualify for a sentencing reduction
under section 3582(c)(1) (A) (ii) because he fails to meet the requisite statutory
thresholds. Escobar is less than 70 years of age and has not served at least 30
years in prison. (DE 1307-5). There is nothing on the record indicating the
Director of BOP has made a safety determination about Escobar. (DE 1306,
1307,1310). Thus, Escobar does not qualify for a sentencing reduction under
this subsection.

19

. ,„Casj: 19-2210

Document: 00117584968

Page: 25

Date Filed: 05/05/2020

Entry ID: 6336384

B. The Court properly denied Escobar's motion since Escobar was not
eligible for a sentence reduction and a reduction would not have
been consistent with the policy statements of the Sentencing
Commission.
Escobar's failed to meet the evidentiary threshold required
demonstrating eligibility for a sentence reduction. The district court may, in
its discretion, reduce a sentence under section 3582(c)(1) (A) (i) when
"extraordinary and compelling reasons warrant such a reduction," and only
if a reduction "is consistent with applicable policy statements issued by the
Sentencing Commission." 18 U.S.C. § 3582(c)(1)(A). The U.S. Sentencing
Guidelines Manual, Section 1B1.13 provides guidance, detailing a three-part
analysis for district courts. U.S. SENTENCING GUIDELINES MANUAL, 1B1.13
(2018). First, subsection (1)(A) states there must be extraordinary and
compelling reasons. USSG§ 1B1.13.

Section 1B1.13 goes on to list two

additional requirements: The court must determine that the defendant is not
a danger to the safety of any other person or to the community, and that the
reduction is consistent with the policy statement contained within section
1B1.13. USSG § 1B1.13 (2) and (3).
Section 1B1.13 contains Commentary and Application Notes in order
to provide courts with further guidance on the meaning of "extraordinary

20

Additional material
from this filing is
available in the
Clerk's Office.

